<html>
<title> - 2010 CENSUS: IMPROVING LOCAL GOVERNMENT PARTICIPATION IN LUCA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
     2010 CENSUS: IMPROVING LOCAL GOVERNMENT PARTICIPATION IN LUCA

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 26, 2007

                               __________

                           Serial No. 110-34

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
39-024                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2007....................................     1
Statement of:
    Hudson, Heather, vice president, National Conference of Black 
      Mayors and mayor, Greenville, MS; Keith Hite, president, 
      National Association of Towns and Townships and executive 
      director, Pennsylvania State Association of Township 
      Supervisors; and Robert Coats, Governor's census liaison, 
      Office of State Budget Management, State of North Carolina.    53
        Coats, Robert............................................    64
        Hite, Keith..............................................    57
        Hudson, Heather..........................................    53
    Kincannon, Charles Louis, Director, U.S. Census Bureau; and 
      Mathew J. Scire, Director, Strategic Issues, U.S. 
      Government Accountability Office...........................     5
        Kincannon, Charles Louis.................................     5
        Scire, Mathew J..........................................    18
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri:
        Prepared statement of....................................     3
        Prepared statements of Governor Blanco, Ms. Heim, and Mr. 
          Bollinger..............................................    42
    Coats, Robert, Governor's census liaison, Office of State 
      Budget Management, State of North Carolina, prepared 
      statement of...............................................    67
    Hite, Keith, president, National Association of Towns and 
      Townships and executive director, Pennsylvania State 
      Association of Township Supervisors, prepared statement of.    60
    Hudson, Heather, vice president, National Conference of Black 
      Mayors and mayor, Greenville, MS, prepared statement of....    55
    Kincannon, Charles Louis, Director, U.S. Census Bureau, 
      prepared statement of......................................     8
    Scire, Mathew J., Director, Strategic Issues, U.S. Government 
      Accountability Office, prepared statement of...............    20
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    15


     2010 CENSUS: IMPROVING LOCAL GOVERNMENT PARTICIPATION IN LUCA

                              ----------                              


                         TUESDAY, JUNE 26, 2007

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay and Tierney.
    Staff present: Tony Haywood, staff director/counsel; Alissa 
Bonner, professional staff member; Jean Gosa, clerk; Nidia 
Salazar, staff assistant; Nick Ballen, intern; Jay O'Callaghan, 
minority professional staff member; John Cuaderes, minority 
senior investigator and policy advisor; and Benjamin Chance, 
minority clerk.
    Mr. Clay. The Subcommittee on Information Policy, Census, 
and National Archives of the Committee on Oversight and 
Government Reform will come to order.
    Today's hearing will examine issues relating to the 
implementation of the Local Update of Census Addresses [LUCA], 
the program for the 2010 census.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements by any other Member who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    I will begin by welcoming everyone to the committee and to 
today's hearing on improving local government participation in 
the Local Update of Census Addresses [LUCA] program.
    This is the second in a series of oversight hearings 
examining the Census Bureau's preparations for the 2010 census. 
It is critical that the Bureau has the information it needs to 
locate and count all individuals in the United States on census 
day, April 1, 2010.
    The decennial census is the single most important survey 
conducted by our Government, and the only one expressly 
required by the Constitution. It determines how congressional 
seats are apportioned, and it directly impacts how over $200 
billion in Federal funding is distributed to State, local, and 
tribal governments each year.
    The census counts people where they reside on census day. 
Each individual's location is determined not by name, telephone 
number, or other personally identifiable information, but by 
their address; therefore, an accurate enumeration of the 
population requires the Bureau to have current and complete 
address lists and maps. This is the sole purpose of the LUCA 
program, which involves address information sharing among local 
and tribal governments, the U.S. Postal Service, and the Census 
Bureau.
    Authorized by the Census Address List Improvement Act of 
1994, LUCA was first implemented for the last decennial census 
for the 2000 census. For the 2000 census, 53 percent of the 
39,051 local entities that were eligible to participate chose 
not to do so. Meanwhile, 25 percent submitted at least one 
address correction or challenged at least one block. As a 
result, millions of homes were not included on the census 
address list, were improperly deleted, or were incorrectly 
located on census maps. This contributed to what is commonly 
known as the under-count, which historically has had a 
disproportionate impact on racial or ethnic minority 
communities.
    Since 2000, the Bureau has made adjustments aimed at 
increasing participation and decreasing the under-count. Today 
we will hear about those changes, as well as GAO's recent 
evaluation of LUCA implementation efforts for the 2010 census.
    Another important issue is to examine why the Bureau 
determined not to employ so-called update enumeration in the 
2008 dress rehearsal.
    In our previous hearing, Dr. Joe Salvo, director of the 
Population Division in New York City endorsed using this 
methodology to ensure an accurate count of individuals who 
reside in non-standard, multi-family dwellings where apartment 
numbers are either confusing or absent. Testing it prior to 
conducting the 2010 census could improve its effectiveness and 
save costs in the long run, but budget limitations appear to 
have hindered its use during the dress rehearsal.
    I look forward to the testimony of our witnesses, who will 
tell us how LUCA and other tools can help us meet the challenge 
of enumerating the population accurately by census day in 2010.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T9024.001
    
    [GRAPHIC] [TIFF OMITTED] T9024.002
    
    Mr. Clay. On our first panel we will hear from the 
Honorable Charles Louis Kincannon, Director of the U.S. Census 
Bureau.
    Welcome again to the committee.
    We will also hear from Mr. Mathew J. Scire, Director of 
Strategic Issues at GAO.
    Thank you for being here before this subcommittee.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative.
    Dr. Kincannon, before you begin, let me note that this is 
your first appearance before the subcommittee since the 
President nominated Dr. Steven Murdock to succeed you. When you 
announced your retirement last year, you stated that you would 
stay on until your replacement was confirmed. That was an 
honorable and selfless act, and it was characteristic of the 
leadership you have demonstrated. I believe this will not be 
your last appearance before the subcommittee, but I want to 
take this opportunity to thank you for your distinguished 
service to our Nation, and also say that I sincerely hope your 
successor will be as committed as you have been to the Bureau 
and its very important mission.
    That said, you will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. The yellow light will indicate you have 1 
minute remaining and the red light will indicate your time has 
expired.
    Mr. Kincannon, you may proceed.

 STATEMENTS OF CHARLES LOUIS KINCANNON, DIRECTOR, U.S. CENSUS 
 BUREAU; AND MATHEW J. SCIRE, DIRECTOR, STRATEGIC ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

              STATEMENT OF CHARLES LOUIS KINCANNON

    Mr. Kincannon. Thank you, Mr. Chairman. I appreciate the 
opportunity to discuss the LUCA program before the committee 
today.
    LUCA plays a critical role in our efforts to ensure the 
accuracy and success of the 2010 census. I am proud to report 
that this important and earliest of 2010 census activities is 
officially underway and proceeding according to plans and 
schedule.
    The LUCA law, which some of the members of this 
subcommittee sponsored, authorizes the Census Bureau to provide 
designated officials of tribal, State, and local governments 
with access to confidential census address and mapping 
information.
    The first LUCA review program was conducted for the 2000 
census, and we learned valuable lessons that are the foundation 
for our plans for the 2010 census. For 2010 we are better 
organized, by far. By conducting advanced and earlier outreach, 
as well as creating more opportunities for local governments to 
participate, we hope to achieve our goal: that is, to ensure 
the LUCA program is more inclusive for 2010, meaning that more 
governments can effectively participate.
    Other plan enhancements also reflect this goal. One of the 
notable changes from census 2000 is that we are inviting States 
to participate directly. We also intend to provide a longer 
review cycle. For the 2010 census, governments will have 120 
days to review the materials, rather than 90 days in 2000. This 
should allow them to plan and review their address lists 
thoroughly and effectively.
    We are also conducting the address canvassing operation 
after LUCA. During this operation, census listers will verify 
or update the addresses they see against the address 
information on the Census Bureau's address list and maps. This 
will include all of the address additions given to us by local 
governments. Address canvassing is especially important in 
rapidly changing areas and underscores the importance of LUCA 
and local address sources for updating in places such as the 
Gulf Coast areas that were damaged by Hurricanes Katrina and 
Rita.
    We hope our earlier and ongoing outreach efforts increase 
participation. We have already sent advance notification 
letters earlier this year to every tribal, State, and local 
government. We have also conducted nearly 1,000 pre-invitation 
promotional workshops covering approximately 10,000 
governmental units. In August we will begin sending the actual 
invitation letters, providing registration materials and other 
information materials to help governments in deciding how to 
participate.
    Unlike the 2000 census, we are offering three options to 
participate, including a non-confidential review of the summary 
census block counts and local address list submission. Under 
option one, government participants will be asked to 
incorporate changes for the city style addresses. Participants 
who select this option, as well as option two, are required to 
sign the confidentiality agreement and must have the means to 
secure the materials that are protected by Title 13.
    In option two, participating governments will be able to 
review our address list materials and submit their city style 
address lists for the Census Bureau to use, without making 
changes to our materials. This was developed for those 
government participants who may not have the time or resources 
to update the 2010 census LUCA address list.
    Option three is a non-confidential opportunity for 
governments to review only the 2010 census LUCA address count 
list, and they can submit their own local address list to the 
Census Bureau for use. This option is intended for those 
governments who do not have the time or resources to conduct 
the address list review process or who cannot meet the Title 13 
security requirements.
    We are asking every tribal, State, and local government to 
respond as quickly as possible to the invitations. We can 
accept registrations through the end of December this year. We 
must begin processing the submissions and preparing for address 
canvassing, the first major field operation for the decennial 
census, which begins early in 2009. We intend to provide LUCA 
feedback to each participating government on a flow basis, 
beginning in August through October 2009, following the address 
canvassing operation.
    Our primary goal for LUCA is to ensure that every tribal, 
State, and local government is given an opportunity to 
participate according to their needs and resources. We are 
working with our partners to promote the LUCA program. We also 
request your support and leadership in promoting the LUCA 
participation. LUCA plays a critical role in ensuring the 
accuracy and completeness of the 2010 census. Local government 
participation can make the census more successful.
    Mr. Chairman, I thank you for this opportunity, and would 
be pleased to answer any questions.
    I am beyond my 5 minutes, but I do want to say I did 
appreciate and enjoy every courtesy extended to me by you, by 
Chairman Turner, by Chairman Putnam before him, in making our 
preparations better understood and reinforced for the census.
    Thank you.
    [The prepared statement of Mr. Kincannon follows:]

    [GRAPHIC] [TIFF OMITTED] T9024.003
    
    [GRAPHIC] [TIFF OMITTED] T9024.004
    
    [GRAPHIC] [TIFF OMITTED] T9024.005
    
    [GRAPHIC] [TIFF OMITTED] T9024.006
    
    [GRAPHIC] [TIFF OMITTED] T9024.007
    
    [GRAPHIC] [TIFF OMITTED] T9024.008
    
    Mr. Clay. Thank you so much for that and for your 
testimony.
    Before we go to Mr. Scire, I wanted to submit for the 
record the opening statement of our ranking member, Michael 
Turner of Ohio. It will be part of the subcommittee record.
    [The prepared statement of Hon. Michael R. Turner follows:]
    [GRAPHIC] [TIFF OMITTED] T9024.009
    
    [GRAPHIC] [TIFF OMITTED] T9024.010
    
    [GRAPHIC] [TIFF OMITTED] T9024.011
    
    Mr. Clay. Mr. Scire, you may proceed.

                  STATEMENT OF MATHEW J. SCIRE

    Mr. Scire. Mr. Chairman, thank you for the opportunity to 
be here today to discuss the Census Bureau's LUCA program.
    My remarks are based on a study we concluded this month in 
which we assessed the Bureau's dress rehearsal for LUCA. In 
that report we made a number of recommendations to improve the 
program, and the Bureau has agreed with those recommendations.
    A complete and accurate address list is the cornerstone of 
a successful census. The Bureau takes a number of steps to 
ensure an accurate address list. One of those is enlisting the 
help of State and local governments in verifying address and 
map information for housing units located in their communities.
    Almost 8 years ago we testified that the LUCA program had 
mixed results. We noted the burden that the program placed upon 
participating governments. For example, over two-thirds of 
participants we surveyed at the time told us that the LUCA 
workload was much or somewhat more than they had expected. 
Also, many local governments participating in LUCA in 1998 
expressed concern with having sufficient resources to review 
the material.
    Today I can report that the Bureau has taken several steps 
to address prior concerns about burden. Nonetheless, there is 
more the Bureau can do to help communities successfully 
participate in the program.
    Let me start by recognizing some of the improvements to the 
LUCA program. First, to reduce burden the Bureau combined 
previously separate LUCA efforts that involved city style and 
non-city style addresses into a single operation. Also, the 
Bureau increased the time that localities have to provide 
information, now 120 days rather than 90. The Bureau also 
provided advanced notice to eligible communities, sending 
letters earlier this year to advise them about the upcoming 
program.
    The Bureau also has had a few mis-steps. It developed 
software that it hopes will facilitate participants' reviews, 
but the software, called the MAF/TIGER Partnership Software, 
has had only limited testing with potential users. We believe 
that there is more the Bureau can do to understand the 
usability of the software, including testing with additional 
potential users.
    Similarly, the Bureau developed computer-based training to 
teach participants how to complete LUCA material; however, the 
Bureau has not tested this training tool with potential LUCA 
participants at the time of our review. We recommended that the 
Bureau do additional testing of the software, and it is 
attempting to do so.
    Finally, we found in our survey participants in a dress 
rehearsal that over one-third had difficulty converting Bureau-
provided files into formats that they use. We recommend that 
the Bureau do more to provide instruction for participants on 
how to make this file conversion. The Bureau has agreed to do 
so.
    To better understand the results of the LUCA program, the 
National Research Council and others recommend that the Bureau 
do more to assess the impact of the program; for example, 
recommending the Bureau assess the contribution of the program 
to housing unit and population counts and assess the program's 
cost and benefits.
    We believe there is more the Bureau can do to understand 
the impact the LUCA program has on correctly identifying 
housing units, as well as its contribution toward population 
counts. Such analysis would help the Bureau judge the success 
of the program and to improve future operations.
    To fully assess the contributions of the LUCA program, we 
recommended that the Bureau collect additional data that would 
permit it to identify eligible localities that agreed to 
participate in the program but did not submit updated material. 
Without this information, the Bureau cannot determine whether 
these communities had found that they had no changes to submit 
or that they simply chose not to reply.
    In summary, Mr. Chairman, we believe the Bureau could do 
more to optimize the contributions made by LUCA participants by 
providing them the best available tools for doing the job. 
Likewise, there is more that the Bureau could do to assess the 
outcome of the LUCA program. We made specific recommendations 
in these areas, and the Bureau has promised to take action.
    This concludes my opening remarks. Thank you again for the 
opportunity to speak today. I would be glad to take any 
questions that you may have.
    [The prepared statement of Mr. Scire follows:]

    [GRAPHIC] [TIFF OMITTED] T9024.012
    
    [GRAPHIC] [TIFF OMITTED] T9024.013
    
    [GRAPHIC] [TIFF OMITTED] T9024.014
    
    [GRAPHIC] [TIFF OMITTED] T9024.015
    
    [GRAPHIC] [TIFF OMITTED] T9024.016
    
    [GRAPHIC] [TIFF OMITTED] T9024.017
    
    [GRAPHIC] [TIFF OMITTED] T9024.018
    
    [GRAPHIC] [TIFF OMITTED] T9024.019
    
    [GRAPHIC] [TIFF OMITTED] T9024.020
    
    [GRAPHIC] [TIFF OMITTED] T9024.021
    
    [GRAPHIC] [TIFF OMITTED] T9024.022
    
    [GRAPHIC] [TIFF OMITTED] T9024.023
    
    [GRAPHIC] [TIFF OMITTED] T9024.024
    
    Mr. Clay. Thank you so much for that testimony, Mr. Scire.
    I will start off by asking Director Kincannon about the 
Bureau's report that there were 39,051 eligible entities for 
the 2000 LUCA program. Of that number, 20,718 chose not to 
participate. However, the Bureau informed GAO that it expects 
the rate of participation to increase to 60 percent for the 
2010.
    What steps are you taking to achieve a higher rate of local 
government participation in LUCA, Mr. Director? How do we get 
this right? How do we get it on the right track in preparation 
for 2010?
    Mr. Kincannon. Mr. Chairman, the program that we had in 
2000 was somewhat late in preparation. It was unnecessarily 
complex, as Mr. Scire pointed out, in multiple parts that made 
sense in the mind of a census geographer but were not familiar 
to mayors and local officials. That made it more difficult. We 
did not provide software that enabled them to easily convert 
their records of addresses to usable format for the Census 
Bureau.
    And we have tried to address that. I don't know that we 
will have a perfect situation, but I am confident we will have 
a much better LUCA for 2010 than we did now. We have begun 
earlier. We began notification to eligible governments, all 
39,000 of them, in January and February of this year, alerting 
them to the fact that LUCA would be approaching and they needed 
to take certain steps and what we were going to be doing.
    We have, in the interim, held a number of informational and 
promotional meetings, almost 1,000 of them, and more than 
10,000 governments have participated. Every governing unit has 
been contacted about these meetings. There has been one or more 
in every State. So this has helped raise the consciousness and 
begin the early preparation locally, which is necessary to make 
it successful.
    We have prepared software that will relate to the commonly 
used kinds of address and geographic information system 
software used in municipal and county and even State 
governments to help localities take the records they already 
have and convert them in a straightforward way to records we 
can use in our program.
    We will make the software available. We will provide 
instructions readily, through a help desk, through Web-based 
information, and even in printed form if that is the most 
convenient way for localities to do it.
    We will in August begin accepting registrations from local 
governments who are engaging to undertake LUCA. I think we have 
a broader understanding in local governments now as a result of 
the 2000 exercise, and certainly have the informational and 
promotional work done so far that participation in LUCA is one 
of the most effective ways that State and local government and 
tribal government can improve census results in their area.
    You rightly said in your opening remarks that our census 
really is built on the back of addresses, and if you have the 
right address list we will have better coverage in the census. 
You can't count people if you miss where they live, so this is 
an important contribution that local and State governments can 
make in improving their census.
    Then we will collect the information, send our records to 
the participating States. They will incorporate their 
corrections and suggestions and we return them to them. We will 
review that, incorporate all of the added addresses that they 
suggest are there into the data base to be used by our address 
canvassing listers.
    The addresses will not be separately identified, so a 
census lister is out trying to see where are the housing units 
around this block will not be able to tell one that we got from 
the Post Office from one that we got from the mayor's office or 
the State. They will just go and find, if they can identify 
where that housing unit is. If they can, then it is in for the 
census. If they can't, then we feed that information back to 
the locality.
    If the locality disagrees with that determination, there is 
an appeal process which the law sets up. It is organized and 
supervised by the Office of Management and Budget, with experts 
that they hire particularly for that purpose, and then they 
decide whether we goofed or the locality did not have good 
evidence, and we abide by what they said. If they say go look 
again, we go look again.
    So I think those steps are likely to make for a much better 
LUCA process, and therefore a better census in 2010.
    Mr. Clay. You know, Mr. Director, LUCA has been authorized 
for over 10 years now, which indicates to me that since you had 
your first trial of it in the 2000 census, that you would have 
seen some of the flaws and address those flaws, and really, 
just listening to your response, requires a true lateral 
relationship between local governments, not a one-sided or top-
down approach from the Census Bureau's point. And it requires a 
true relationship. I hope that has developed over the past 
decade within your culture in the Bureau, where people actually 
realize, look, we can't do this alone, and that the Bureau and 
the people that work for the Census Bureau understand that.
    I notice that GAO found that local elected officials are 
still having file conversion problems, and those problems are 
similar to what they experienced in 2000, which tells me there 
probably needs to be better communication between the Bureau, 
their employees, and local government.
    Has there been an attempt or effort----
    Mr. Kincannon. We have not yet sent to local governments 
the files that they will have to use to compare with their own 
and incorporate their own data in those files. We agree with 
the GAO's finding that we have not tested that yet 
sufficiently, and we are going to followup and do a better job 
of getting that testing done with actual governments. Some 
governments will still find flaws, I am sure, but we are so 
much closer to achieving what I think is a good and transparent 
process.
    We certainly cannot with a straight face say that the mayor 
or the town planner or the county engineer on the ground there 
does not know more about whether a housing unit exists than we 
do miles away in Washington. So if they say that 121 Maple 
Street is a housing unit, we are going to go to 121 Maple 
Street and see if we can find it.
    Mr. Clay. OK. Let me ask you about this. The Bureau did not 
test the MAF/TIGER Partnership Software, or the CTP software 
during the LUCA dress rehearsal; however, the Bureau readily 
accepted GAO's recommendation that it should conduct more 
testing. Please explain the initial decision not to test the 
software, and what are your plans for ensuring operability, 
reliability, and ease of use?
    Mr. Kincannon. The contract for the software was not let 
until last summer, and it did not allow time to get it 
completed in time for use in the dress rehearsal. I am not sure 
of all the steps that led to that, but at any rate it was not 
for lateness on the part of the contractor. If it is a flaw in 
tardiness, it is our flaw.
    I cannot answer today what our plans are for the testing. 
Certainly we have sought local advice from the county where we 
do our business, Prince George's County, in seeing how they 
react to this software, and we will have to do some other steps 
like that in various parts of the country and certainly with 
different sizes of local governments, because Prince George's 
County is a large, wealthy, and sophisticated unit of 
government, and there are going to be smaller towns and less-
populated counties that may not have their aptitude to do that. 
We need to do that sort of testing.
    Mr. Clay. How quickly will your turn-around be when you 
find incompatibility with ``local governments?''
    Mr. Kincannon. Well, we will try to make sure that they are 
understanding properly how to use the software as it is 
developed, or we will have to make amendments in that software 
if we discover errors or complexities that are unnecessary.
    I don't know the turn-around time for that. We will get you 
an answer for the record so that you have something to hold us 
accountable for.
    Mr. Clay. OK. Specifically, could you also provide us with 
a contingency plan to address potential operating problems that 
might have been detected if the software had been used?
    Mr. Kincannon. Yes, sir, we will.
    Mr. Clay. OK. Thank you for that.
    Let me move to Mr. Scire.
    In written testimony submitted by David Ballinger, 
principal GIS analyst for San Joaquin County, CA, one of the 
LUCA dress rehearsal sites, stated that the county had 
difficulty performing block level counts where census blocks 
did not correspond with physical blocks. In one particular case 
the Census Bureau's list had a single large street block of 
condominiums listed as three separate census blocks. Did GAO 
witness similar experiences during your observation of the 
dress rehearsal?
    Mr. Scire. I can't say that we have witnessed that specific 
phenomenon during the dress rehearsal for LUCA, so no.
    Mr. Clay. OK. Can you tell us approximately how much 
additional work is required to correct any problems like that?
    Mr. Scire. No. We don't have that measurement.
    Mr. Clay. Do you have any recommendations for the Bureau?
    Mr. Scire. Yes, we do have recommendations for the Bureau. 
If I could go back to some of the earlier questions, you were 
asking about the partnership rate and what the likelihood is 
for the future. I think what is important is to look at not 
just partnership rate--that is one measure of success--but also 
to look at how well the individual localities are able to work 
with the Bureau on providing information, so is it a successful 
partnership, if you will. So there we make recommendations to 
improve the tools that the Bureau is providing to localities, 
including the software that you mentioned, the MAF/TIGER 
Partnership Software, and the computer-based training.
    I also want to point out that the file conversion that we 
were talking about earlier really is not the MAF/TIGER 
Partnership Software. This is for localities that chose not to 
use MAF/TIGER Partnership Software. They were having 
difficulties converting Bureau-provided files into formats that 
they use, such as Access, for example. There we made 
recommendations for the Bureau to provide additional guidance 
or instruction that they might find on the Bureau Web site or 
otherwise.
    Mr. Clay. OK. Let me ask you, based on your work during the 
dress rehearsal, how would you describe the New Orleans' 
officials' understanding of LUCA requirements? Are they 
consistent with the Bureau's?
    Mr. Scire. Yes. I think that there is consistent 
understanding of what is required. We also surveyed localities 
and asked them about the guidance that the Bureau provided, and 
generally we received favorable responses that the guidance was 
useful and understandable. We also spoke with individual 
localities. I think that generally they had understood what the 
requirements of the LUCA program were. There was some concern 
about whether or not they would have sufficient resources or 
time to participate, given, especially in the Gulf Coast area, 
their concern and focus on rebuilding.
    Mr. Clay. In written testimony submitted by Mary Heim, 
chief of the demographic research unit for California's 
Department of Finance, it is stated that local officials found 
discrepancies between the TIGER and LUCA files.
    Mr. Scire. OK.
    Mr. Clay. After contacting the Seattle Regional Office for 
technical assistance to no avail, county officials learned from 
ERSI that, in order to use the LUCA files for GO coding, an 
additional step was necessary to convert the file. GAO notes in 
its report that local officials did not receive instruction on 
converting files.
    You note that challenges with the file conversion remain. 
Is the case cited by Ms. Heim an example----
    Mr. Scire. Yes.
    Mr. Clay [continuing]. Of the concern expressed by local 
officials that you spoke with?
    Mr. Scire. Yes, that is it exactly. We surveyed all of the 
participants in the LUCA program, and we asked them to what 
extent did they experience problems with file conversion. Nine 
of them told us that they had problems to a very great or great 
extent, another five said to a moderate extent. There were only 
7 out of the 30 that said they had no problem with file 
conversion. So we looked at file conversion as being a major 
difficulty for localities.
    If the MTPS doesn't work, these localities will have to 
rely on file conversion even more. Now, the Bureau doesn't know 
how many localities will be using MTPS. That was not something 
that was tested as part of the dress rehearsal, so you wouldn't 
be able through that to get an understanding of the extent to 
which the localities that did participate would have chosen 
MTPS over converting Bureau-provided files.
    So we do think it is an important problem to focus on, and 
the Bureau has agreed to do additional guidance and so forth. 
The more that they can do with that, the better for localities, 
that they have the best tools for doing their job.
    Mr. Clay. And those are your recommendations to the 
Bureau----
    Mr. Scire. That is right. Yes.
    Mr. Clay [continuing]. On how to lessen the number of 
problems?
    Mr. Scire. We are looking at successful participation, not 
just participation.
    Mr. Clay. Right.
    Mr. Scire. And for successful participation, it is 
incumbent on the Bureau to provide the best tools that it can. 
To its credit, it worked to develop this software. It did not 
plan for the testing of the software, and it is through that 
sort of testing that you are going to find the bugs that will 
appear in any sort of software. It is through that kind of 
testing that you are going to get the truest measure of how 
well the software will work with real, live users.
    Mr. Clay. OK. Thank you.
    Let me go back to Director Kincannon. How about this case 
where they go to the Seattle Regional Office looking for some 
technical assistance and not being able to get satisfactory 
assistance? Have you looked at, not at this case, but just 
similar problems that have arisen? And do you know how to 
address it?
    Mr. Kincannon. No. I wasn't aware of this instance. I will 
look into it and see what the problem was. Normally, we expect 
the geographic staff in our regional offices to followup, and 
particularly at this stage of things to be able to offer 
technical assistance to a State-level office.
    I do know that a number of large jurisdictions use ESRI 
geographic information system software. ESRI was a company that 
bid on the development of the software for LUCA and MAF/TIGER. 
They did not win that bid. Another company won that bid. But 
because they have a large market, they have told us that they 
are moving ahead with preparation of software that will work 
with their data base and provide us the information that is 
usable in our form, and we will be liaising and testing with 
them what they provide there, so that will help in the case of 
California perhaps better than our retrofitting of what they 
have to what we need.
    Mr. Clay. Mr. Director, that is a peculiar relationship, 
wouldn't you say? A company that did not win the bid is 
providing----
    Mr. Kincannon. They also have, Mr. Chairman, an interest in 
providing services to their large customer data base and not 
getting them accustomed to some other kind of software, so 
these things work to be mutually supportive, perhaps.
    Mr. Clay. Thank you for that.
    Mr. Kincannon. Yes, sir. We have agreed with these 
recommendations of the GAO and are going to be following up and 
implementing them.
    Mr. Clay. Let me shift back to Louisiana. The Census Bureau 
was told by local officials in New Orleans that the current 
LUCA program is adequate for the area and that no special 
adjustments were needed to accommodate the area. However, there 
is some concern that local officials might have an 
understanding of the LUCA requirements that differs from that 
of the Bureau.
    What is the Bureau doing to ensure that local officials in 
hurricane-affected areas have an accurate understanding of the 
requirements for LUCA participants? And how will the Bureau 
address the fact that many local governments in the hurricane 
affected area of the Gulf Coast region are still in the process 
of reconstruction, and restoration, might not have the 
resources to participate in LUCA?
    Mr. Kincannon. I am not sure we can address the resource 
question for local governments in this regard. I understand 
that they have many claims on their resources. We have 
conducted discussions with State-level officials in the 
affected areas about the plans for how we are going to carry 
out LUCA, and they have not suggested, nor have local officials 
we have talked to, any particular change in the procedures. We 
do, after all, send people out in the address canvas to look at 
every block and every area and every address that is made known 
to us, whether it is made known to us by the local government 
or from the postal records or our own records, and see if that 
is still there, or if some new dwelling place has been placed 
there, or if it is a FEMA trailer. So there is a fairly 
thorough re-evaluation on the ground of those addresses in the 
canvassing operation.
    We also have planned for additional meetings with local 
area officials as we approach LUCA and give them priority and 
attention so that we can become aware of any misunderstandings 
or of any needs that we may be able to address.
    Mr. Clay. I had invited the Governor of Louisiana here, but 
they are finishing up their legislative session so she could 
not, but she sent a letter. She really wanted to stress today 
the importance of the Bureau being sensitized to the fact that 
you have a situation along the Gulf Coast region, and 
particularly Louisiana, where some people have come back to the 
region since. A lot of them don't live in the properties that 
they occupied before the hurricane, but they are there, and 
they may be living with relatives, friends. They may be stacked 
up in homes or apartments. She just wanted to be sure that the 
Bureau was aware of it and, where needed, to also put the right 
focus and attention on those areas, and if the resources are 
needed, make a sacrifice to actually assist those areas so that 
we can get a true picture of what is going on in those areas.
    Mr. Kincannon. Well, we have some familiarity with the 
area. Following the hurricanes, several dozens of census 
employees volunteered to help--not to do things for the data 
base, but to do things for FEMA and for other aid givers and 
servers there. So we have some first-hand knowledge of the 
level of destruction and dislocation.
    We are aware of the problem of people removed from their 
customary dwelling place and stacked up or doubled up with 
family or relatives living in FEMA trailers and so on. We 
adapted our methods of asking questions in the American 
community survey, as well as in the current population survey, 
to reflect this and make sure that we tried to count those 
other people.
    The census questionnaire, itself, provides for adding 
additional people if there are other families living doubled up 
with you.
    We are ultimately dependent on people in the household to 
report and to say, Well, we need extra forms, extra 
questionnaires, but there is a procedure that should address 
that.
    We do continue to conduct the American community survey in 
all of those areas every month, so that gives us an on-the-
ground familiarity with conditions and evolving and changing 
conditions.
    Mr. Clay. Thank you for that response.
    The Census Bureau reported that 1.6 million vacant housing 
units were misclassified as occupied, and 1.4 million housing 
units not included in the 2000 census. These numbers would have 
been higher had the Bureau not used update/enumerate. According 
to the Bureau's update/enumerate final report, the methodology 
contributed to the success of the 2000 census by improving 
address lists and identifying areas suited for enumeration. By 
using the process, the Bureau was able to determine that 
approximately 950,000 of the over 1.1 million update/enumerate 
addresses were either occupied or vacant housing units; 
however, the Bureau decided against using update/enumerate for 
the 2008 dress rehearsal.
    Why was the decision made not to use update/enumerate in 
the 2008 dress rehearsal? Was it due to funding constraints or 
some other factor or factors? And how much additional funding 
would be needed if funding was the issue?
    Mr. Kincannon. Funding was not the issue. We did not need 
to test update/enumerate because it is a procedure that we have 
used in past censuses and know how to use it. The dress 
rehearsal areas were chosen to study other particular kinds of 
problems--housing on military bases and so on--so those were 
the key things that drove us to pick those areas and not the 
need to test update/enumerate. We know how to do update/
enumerate.
    The issue that has been raised by Joe Salvo about using 
update/enumerate in dense urban areas is a legitimate one. The 
problem we need to deal with there is do we have the ability to 
identify in advance the areas where we could use that 
procedure. If we can identify those in advance and plan to use 
that process and not the Post Office in defined areas, then we 
know how to carry out the process.
    Mr. Clay. Thank you for that response.
    Mr. Scire, address canvassers will use hand-held computers 
equipped with a global positioning system to make adjustments 
to their address lists. At the April 24th hearing, Michael 
Murray of Harris Corp., the manufacturer of the hand-held 
computing devices, informed the subcommittee that the machines 
were working properly and were expected to do so during the 
dress rehearsal. Did you observe any problems with the hand-
held computers during the dress rehearsals? If so, how were the 
problems handled?
    Mr. Scire. We are in the midst of the work, as you know, 
and I can report that there are some things that we observed 
that raise questions for us about the operation of the hand-
held computers. This is very preliminary observations that we 
have at this point.
    And we also could see some changes over the course of the 
dress rehearsal, as well. So at the beginning of the dress 
rehearsal we were observing some issues with transmission 
times, and those, the Harris Corp. explains, were corrected 
through software upgrades. I can't confirm that is the case or 
not, but that is something that we are looking into.
    More recently, you know, we wanted to go back to the dress 
rehearsal locations after they had had a few weeks to use the 
hand-held devices, and there were a couple of things that we 
noticed which raise questions for us. One has to do with 
linking multiple addresses for a single building, such as an 
apartment building.
    Mr. Clay. Yes.
    Mr. Scire. Being able to map spot using one map spot for 
multiple addresses. In one instance we observed a lister who 
took a couple hours to do I think it was 16 addresses. So, you 
know, obviously that would affect productivity.
    Also there were some questions raised about the devices 
having too much information for large assignment areas, which 
would slow down the processing of the hand-held computer.
    I want to emphasize, though, that these are preliminary 
observations, and we are still working with the Bureau and 
working with Harris to find out what is the meaning of what we 
are observing.
    Mr. Clay. In the field did Harris respond to some of the 
issues that you raised in an adequate amount of time? And did 
they provide onsite technical assistance when you pointed out 
issues with them?
    Mr. Scire. Yes. We, at the end of our trip in California 
for the first visit, we did meet with Harris, including Mr. 
Murray, via telephone, to describe the things that we were 
observing so that they could basically help us understand what 
they meant. At that point they were pointing toward software 
upgrades.
    I think your question is getting at what level of technical 
support Harris is providing in the dress rehearsal locations. 
My understanding is that in each location they have a single 
person at the technical help desk, and at some times they are 
quite busy.
    Mr. Clay. Thank you for that response.
    Let me also thank the Director and you for being here today 
and thank you for your service in coming before this committee.
    This panel is dismissed. Thank you.
    We will now set up for the second panel.
    On our second panel we will hear from the Honorable Heather 
Hudson, mayor of Greenville, MS, and vice president of the 
National Council of Black Mayors.
    Thank you for being here, Mayor Hudson.
    Ms. Hudson. Thank you.
    Mr. Clay. And we also have Mr. Bob Coats, census liaison 
for the Governor of the State of North Carolina.
    We appreciate your attendance today, also.
    And Mr. Keith Hite, president of the National Association 
of Towns and Townships and executive director of the 
Pennsylvania State Association of Township Supervisors.
    I welcome all of you and thank you for traveling to be with 
us today.
    Before we take your oral testimony, I want to note for the 
record that we have also received testimony in writing from the 
Honorable Kathleen Blanco, Governor of Louisiana; Ms. Mary 
Heim, chief of the demographic research unit for the State of 
California Department of Finance; and Mr. David Bollinger, 
principal GIS manager for San Joaquin County, CA. We regret 
that they could not be with us in person today but we 
appreciate very much their willingness to cooperate and share 
their valuable perspectives in this matter.
    [The prepared statements of Governor Blanco, Ms. Heim, and 
Mr. Bollinger follow:]

[GRAPHIC] [TIFF OMITTED] T9024.025

[GRAPHIC] [TIFF OMITTED] T9024.026

[GRAPHIC] [TIFF OMITTED] T9024.027

[GRAPHIC] [TIFF OMITTED] T9024.028

[GRAPHIC] [TIFF OMITTED] T9024.029

[GRAPHIC] [TIFF OMITTED] T9024.030

[GRAPHIC] [TIFF OMITTED] T9024.031

[GRAPHIC] [TIFF OMITTED] T9024.032

[GRAPHIC] [TIFF OMITTED] T9024.033

[GRAPHIC] [TIFF OMITTED] T9024.034

[GRAPHIC] [TIFF OMITTED] T9024.035

    Mr. Clay. It is the policy of the oversight committee to 
swear in all witnesses before they testify. Would you all 
please stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that all of the witnesses 
answered in the affirmative.
    Each of you will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. The yellow light in front of you will 
indicate you have 1 minute remaining. The red light will 
indicate that your time has expired.
    Mayor Hudson, we will begin with you. Go right ahead.

    STATEMENTS OF HEATHER HUDSON, VICE PRESIDENT, NATIONAL 
  CONFERENCE OF BLACK MAYORS AND MAYOR, GREENVILLE, MS; KEITH 
 HITE, PRESIDENT, NATIONAL ASSOCIATION OF TOWNS AND TOWNSHIPS 
   AND EXECUTIVE DIRECTOR, PENNSYLVANIA STATE ASSOCIATION OF 
   TOWNSHIP SUPERVISORS; AND ROBERT COATS, GOVERNOR'S CENSUS 
  LIAISON, OFFICE OF STATE BUDGET MANAGEMENT, STATE OF NORTH 
                            CAROLINA

                  STATEMENT OF HEATHER HUDSON

    Ms. Hudson. Thank you, Mr. Chair.
    On behalf of myself and the National Conference of Black 
Mayors, thank you for the opportunity to have us share our 
views on implementing the 2010 census. I am Heather Hudson, 
mayor of Greenville, MS, and second vice president for the 
National Conference of Black Mayors, on behalf of our 
president, Mayor George Grace, who could not be with us today, 
but he does send his regards.
    First, the National Conference of Black Mayors is committed 
to working with the Census Bureau to ensure an accurate count 
for not only our member communities but all cities, towns, and 
villages in these United States of America.
    NCBM supports over 600 African American mayors in the 
United States today, and we serve over 60 million people 
nationwide. The majority of our communities, however, have 
populations of less than 50,000 people, and most are minority 
in nature, and historically are the very communities that 
experience miscalculations in the number of people that reside 
therein.
    We know all too well the impact that incorrect tallies can 
have on a community, as many of our member communities depend 
greatly upon Federal tax dollars for local programs. For this 
reason, NCBM looks with great interest upon the LUCA program 
and our role in the 2010 census process.
    As has been stated by the Census Bureau, the census has a 
constitutional mandate to count everyone living in the United 
States, count them only once, and count them in the right 
place, but how can someone be counted if we don't know where 
they are?
    Our commitment, if allowed, is to assist by not only 
showing where the people are, but helping to make sure that we 
get a proper count.
    As a mayor, I can say with surety that no one knows a 
community better than local officials. We know not only where 
the people reside, but the patterns of movement throughout our 
own cities. From the plans we see for housing and development 
to increases and decreases in school enrollment, to the 
transfer of local utilities, the local government is one of the 
best places to start in terms of gaining a working knowledge of 
the number of people that reside in a particular community.
    However, without the proper resources we cannot provide 
this type of assistance. Questions such as what is an eligible 
government, how are they contacted, is there any followup with 
our governments, the different options that we have, what are 
the secure measures that we are allocated in order to assist--
these are the questions that we hear from our member 
communities.
    In closing, there are three areas that we feel should be 
addressed in order to assure an accurate and smooth-flowing 
census with the full cooperation of the local governments.
    First, all local governments must be provided the 
opportunity to review and update addresses for their 
communities with the resources allocated therein. We understand 
that information is currently being mailed; however, a more 
concerted effort should be made to ensure that every community 
is counted.
    Second, on-the-ground training of all technology, forms, 
and processes to be used should be in place at this very 
moment.
    Finally, the Census Bureau must make some accommodations in 
replacing what we knew to be the dress rehearsal for 2008 and 
the updates therein. This will provide vital information to 
both the Bureau and the local government offices on how well 
these procedures are working.
    Thank you again for the opportunity. We welcome any 
questions.
    [The prepared statement of Ms. Hudson follows:]

    [GRAPHIC] [TIFF OMITTED] T9024.036
    
    [GRAPHIC] [TIFF OMITTED] T9024.037
    
    Mr. Clay. Thank you so much, Mayor Hudson, for that 
testimony.
    Mr. Hite, you may proceed.

                    STATEMENT OF KEITH HITE

    Mr. Hite. Thank you, Mr. Chairman.
    On behalf of the National Association of Towns and 
Townships, we would like to thank the chairman and the members 
of this subcommittee for allowing us the opportunity to discuss 
the impact of the LUCA program on the Nation's towns and 
townships.
    As you noted, my name is Keith Hite. I am president of the 
National Association. I appear before you today on behalf of 
the more than 12,000 towns and townships across America. At the 
present time I serve as President of NATAT and also as 
executive director of the State Association of Township 
Supervisors in Pennsylvania.
    The National Association was formed more than 30 years ago 
to provide America's smaller communities, towns, townships, and 
other suburban and rural localities with a strong voice in 
Washington, DC. Our purpose is to represent these smaller 
communities, champion fair share of Federal funding decisions, 
and to promote legislative and regulatory policies designed to 
strengthen grassroots local government.
    Since 1976, the National Association has strived to educate 
lawmakers and other Federal officials about the unique nature 
and needs of the Nation's smaller communities and their town 
governments and the need for policies that reflect these needs 
and accommodate these needs, as well, both in the suburban and 
non-metropolitan areas of the Nation.
    Of the approximately 39,000 units of local government in 
these United States, 85 percent serve communities with less 
than 10,000 people, and nearly half have less than 1,000 
residents. Nearly one-quarter of all Americans live in rural 
areas. This is approximately the same percentage of Americans 
that live in our central cities.
    Despite the strong numbers of towns and townships, when it 
comes to important funding and legislative decisions made in 
Washington, many of our smaller communities can sometimes get 
lost in the shuffle. As you know, many States and Federal 
programs allocate funds based in part on population. Under-
counting, therefore, is an important test and can be 
responsible for loss of deserved Federal funding for anti-
poverty, law enforcement, education, infrastructure, and other 
critical programs.
    A February 2003 GAO report indicated that in fiscal year 
2000 about $283 billion in Federal grant moneys was distributed 
to State and local governments, based in part on factors such 
as the annual population estimates derived from the 1990 
census. When the population estimates were updated to reflect 
the 2000 census results, and additional $388 million in Federal 
grant funding went predominantly to 23 States that had above 
average estimate revisions.
    Towns and townships cannot afford to be under-counted in 
the 2010 census. The National Association has been working hard 
to encourage its members to accept the invitation to fully 
participate in the LUCA program. NATAT supports the LUCA 
program and joins with the Mayor in committing its members to 
its success. We recognize that LUCA provides smaller 
communities an opportunity to avoid an under-count and help 
keep population estimates accurate.
    During preparations for the 2000 census through the LUCA 
program, local officials were able to rectify problems that 
would otherwise have led to an even larger under-count. For 
example, in Michigan the lines that were drawn to separate 
jurisdictions ran through office buildings and college 
dormitories, and new housing subdivisions were left off the 
census address list. LUCA then and now gives towns and 
townships the opportunity to correct the census address files 
and improve the accuracy of the 2000 and hopefully 2010 census 
counts for smaller communities.
    The census is of critical importance for our smaller 
communities. As you noted at the outset, Mr. Chairman, for 
purposes of reapportionment, it stands alone as one of the 
single most important issues. It also helps us with the funding 
of critical programs. Towns and townships believe that fair 
representation in Congress is a warrant that they deserve. 
Without an accurate count, smaller communities would clearly be 
under-represented.
    Of equal importance are the many Federal and State programs 
that distribute moneys based on population counts. In my own 
State of Pennsylvania, for example, the gasoline tax revenues 
are distributed on population. If the count is not accurate, 
our communities must rely on things such as property tax to be 
able to fund highway maintenance, highway reconstruction with 
those communities, and for our members in Pennsylvania they 
maintain more miles of roads than the State Department of 
Transportation in the six New England States combined, so when 
we are allocating liquid fuels moneys, which is what it is 
referred to in Pennsylvania, the population counts are critical 
to us.
    Also, a portion of the fines that are collected by our 
State Police are distributed to local governments based on 
population. Pennsylvania's community development block grant 
program is dependent on population for the distribution of 
those critical Federal dollars. In Pennsylvania, for a 
community of less than 4,000, they receive no direct moneys. 
From 4,000 to 10,000, they are able to compete for those 
moneys. Again, the population count is critical.
    In many other States served by the National Association, 
census population counts also determine the structure of towns 
and townships and the types of services that they can provide. 
In Ohio, for example, State law permits that a township under a 
certain population may adopt an alternate form of township 
government. Townships that have more than 5,000 people in an 
unincorporated territory may elect to become home ruled. If the 
township has more than 15,000 in an unincorporated territory, 
the Board of Trustees may adopt home rule without a vote of the 
residents. The population figure is based on the last census.
    In order to become a city in Ohio, a village must have more 
than 5,000 people within its incorporated limits. Conversely, 
if a city drops below 5,000 people within the incorporated 
territory, then they must drop to village status. That, too, 
affects their funding opportunities.
    In New York, the 932 towns are divided into three classes: 
second, first, and suburban, depending on the population and/or 
their assessed valuation. The classification of the town 
determines the government structure of the town, as well as the 
authority for that town government. For example, whether a town 
has three elected assessors or one appointed assessor is 
determined in part by the classification of a town.
    In addition to the government structure, whether a town can 
or must provide certain services to the residents of New York 
is determined in part by the population. The authority to set 
speed limits on local roads is tied to a town's population. The 
majority of towns in New York do not have the authority to set 
speed limits on their own roads. Instead, they must petition--
--
    Mr. Clay. Mr. Hite, let me stop you. I get it. I get it. 
Let me say that the timer is malfunctioning.
    Mr. Hite. I saw that.
    Mr. Clay. And you have exceeded your 5 minutes, but I do 
get the point----
    Mr. Hite. My apologies, Mr. Chairman.
    Mr. Clay [continuing]. Of how important the census is, and 
we thank you and appreciate that.
    Mr. Hite. Thank you, sir.
    Mr. Clay. You may wrap it up.
    Mr. Hite. Just to close, let me join with so many others. 
We believe that local government clearly wants and needs to be 
a partner in the census process through LUCA, and the members 
that we represent, the National Association, are willing, able, 
and anxious to do just that, Mr. Chairman.
    Thank you.
    [The prepared statement of Mr. Hite follows:]

    [GRAPHIC] [TIFF OMITTED] T9024.038
    
    [GRAPHIC] [TIFF OMITTED] T9024.039
    
    [GRAPHIC] [TIFF OMITTED] T9024.040
    
    [GRAPHIC] [TIFF OMITTED] T9024.041
    
    Mr. Clay. Thank you so much for that testimony.
    I don't think it is going to function properly, but we will 
note for you when your 5 minutes are up. Mr. Coats, you may 
proceed.

                   STATEMENT OF ROBERT COATS

    Mr. Coats. Thank you, Mr. Chairman, for inviting me to be 
here today, and thank you for selecting the Fayetteville area 
of North Carolina as a dress rehearsal site for the LUCA 
program and the 2010 census dress rehearsal.
    I have worked with census data since the 1990 census, and 
since that time I have noticed a number of dramatic changes to 
the demands placed on census data. There has been a dramatic 
demand for more timely data, for more accurate data, for data 
that is available in a more user-friendly format, and also the 
advent of the GIS systems have placed a demand on having data 
that can be tied directly with mapping products.
    The highest demands, in my experience, have come from 
policymaking communities, businesses, non-governmental 
organizations, the academic communities, and the media in North 
Carolina.
    To meet these increasing needs, the Census Bureau has risen 
to the challenge by utilizing Internet resources and CD-ROMs, 
establishing dissemination partnerships with each State through 
the State data center programs and the business and industry 
development centers programs. They have also created new 
products such as the American community survey and the LUCA 
program.
    The decennial census and other surveys, such as the 
American community survey, rely on getting questionnaires to 
addresses and getting responses back from those addresses. 
These addresses are housed on the master address file.
    While the Federal resources are used to update the master 
address file, the Census Bureau, to its credit, has recognized 
that local input would improve the map resource even better. 
However, the problem has been that local governments don't 
participate consistently and we are left with an uneven quality 
on the map product, and therefore uneven coverage on census 
data.
    So why don't local governments participate with this LUCA 
program? I believe the answer, as I saw it reflected in the 
dress rehearsal in North Carolina, breaks down basically to 
communication. Invitation letters were mailed to highest 
elected officials, and they were asked to designate LUCA 
liaisons in their communities. Large local governments are very 
busy. Small local governments have irregular business hours and 
may only be open 1 day a week. The local officials that are 
contacted may not be familiar with the LUCA program, which last 
happened before the 2000 census, or may not be familiar with 
its impact. And the Census Bureau may have had outdated contact 
information for these highest elected officials.
    In North Carolina, the Regional Census Office, housed in 
Charlotte, has a very good working relationship with my office. 
We were able to provide them with the most up-to-date contact 
information for local officials. My office contacted local 
governments to discuss the local impact and importance of the 
LUCA program. The Regional Census Office held promotional and 
training workshops in the dress rehearsal area. The State 
contact networks, the State data center, facilitated these 
partnerships by allocating office space, by making contact with 
their local governments. And the national headquarters staff 
from the U.S. Census Bureau, along with public information 
officers, met in Raleigh with local officials and toured the 
dress rehearsal area, meeting with local media outlets and 
community leaders.
    When communication and promotion is fostered, participation 
in the LUCA program improves.
    It is true that participation with LUCA and the census 
support increase the communication and outreach, but the 
resulting participation is not the quality that U.S. Census 
Bureau anticipated or desired. Some of the possible cause of 
this was local buy-in to the LUCA program. Many local 
governments, specifically the local GIS offices, felt that 
earlier census maps lacked the accuracy that they had in their 
local offices.
    In conversations with them and from the Regional Census 
Office, the discussion came about discussing the MAF/TIGER 
Accuracy Improvement Program [MTAIP]. In this discussion, it 
was revealed that all the centerline files for census maps for 
the dress rehearsal area had been realigned, and the entire 
State of North Carolina's maps would be realigned by the 2010 
census date, meaning that the new maps would be as accurate as 
the local maps. In that light, local governments saw much more 
value in buying into the program, because they realized they 
weren't supporting flawed products.
    There was discussion of the joint promotional and training 
workshops. The workshops that are currently going on are the 
promotional workshops to educate local officials about what 
LUCA is. During the dress rehearsal time, the promotional 
workshops and training workshops happened at the same time. 
This ensured that at least half the population was going to be 
bored at any one time.
    The local officials did not need to know about the training 
aspect. The people who were going to be doing the verification 
didn't necessarily need to know the promotional aspect. So the 
outreach materials and the outreach conversations need to be 
targeted to the appropriate audience.
    On the technical support issue, there was a consistent 
problem in getting local address data to the Census Bureau in 
the prescribed Census Bureau format. The Bureau mentioned that 
MAF/TIGER Partnership Software would be available by the time 
of the dress rehearsal, and at the current time that software 
is not available.
    Also, there were limited training opportunities, limited 
phone support opportunities to these technical workers.
    In order for these tools and training to be effective, 
there has to be consistent support and the tools have to be 
available to the people that need them.
    Lack of presence was also a problem in terms of getting 
local government buy-in to the LUCA program. In April 2007, the 
local office opened in Fayetteville for the dress rehearsal 
area; however, the LUCA program was conducted in the fall of 
2006. If that regional office, that local office, had been 
opened slightly earlier, there would have been a local presence 
for the Census Bureau and local officials would have felt that 
there was an easier way of contacting the Bureau for support or 
input. If possible, I would hope that these local offices would 
be able to be opened sooner in the LUCA cycle that is now 
underway.
    To sum up my comments, North Carolina is firmly committed 
to the LUCA program because we see the value in having accurate 
census data, not only in apportionment here in the House of 
Representatives, but also in serving the daily needs of our 
communities.
    We support the activities of the Charlotte Regional Office, 
who have been firmly committed and have been extremely helpful 
in working with us during this time, and we hope that they 
continue those activities.
    I hope that this subcommittee and the Congress, in general, 
will continue to fund the Census Bureau in every way possible 
for their very worthwhile work.
    Thank you for your time today. I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Coats follows:]

    [GRAPHIC] [TIFF OMITTED] T9024.042
    
    [GRAPHIC] [TIFF OMITTED] T9024.043
    
    [GRAPHIC] [TIFF OMITTED] T9024.044
    
    Mr. Clay. Thank you so much, Mr. Coats.
    I want to thank the entire panel for their testimony.
    Let me just ask a panel-wide question. We will start with 
Ms. Hudson and go down the line.
    The Bureau may have already addressed this, but share with 
us, with this committee, what you think the Bureau may need to 
improve the liaison or the outreach with local governments, 
between local governments and the Bureau, for issues that you 
all mentioned, like training and communicating, which is one 
point that you both stressed, that there was a lack of 
communication. Should there be a call center at the Bureau, or 
a troubleshooting process that allows local governments to 
quickly get those issues in front of the Bureau and then the 
Bureau respond?
    Let me just start with you, Ms. Hudson? What do you see 
could help fill some of the void here or could help in 
relationship between local governments and the Bureau?
    Ms. Hudson. Definitely communication would be No. 1, 
without a doubt. Nothing beats on-the-ground personnel, and 
when you are dealing with your local government officials, be 
they mayors, city clerks, be they even council members, whoever 
would be assigned to work for that particular community, to 
have a one-on-one contact with an office; be it a regional 
office or a State office, to have that one-on-one personnel 
contact is going to be one of the best things that we can do.
    What we hear from a lot of our member communities and 
mayors when it comes to this topic is that they don't know 
about the program. They haven't heard about the program. My 
community is a city that serves over 41,000 people, so we do 
have a liaison. We have someone who is working with the LUCA 
program that was established because we got the information in 
the office. But I knew from the outset that this was something 
very, very important because my community was one of those 
communities that was mis-counted back in 2000, so we have this 
on our forefront.
    But there are so many other communities that just do not, 
and they don't have the resources, they don't have the 
allocations, they don't have the computers, they don't have the 
Internet access, they don't have anything that will put them in 
a position to really use this to the best of their ability. So 
we have to start with the communication, and have to start with 
that on-the-ground personnel to assist some of the smaller 
communities.
    Mr. Clay. Does the Bureau offer local governments a 1-800 
number that they can call in for troubleshooting, or have you 
witnessed that?
    Ms. Hudson. We were not made aware of one. I know the 
liaison that works with LUCA works directly in my office, and 
she was contacted. We received some mail that said that we 
needed to work with this program. She is the person who is in 
charge of that, and so she went to one of the training sessions 
and she came back with a nice booklet.
    Mr. Clay. All right. Thank you.
    Mr. Hite, how do you----
    Mr. Hite. I agree with everything the Mayor said. I think 
one of the missing components of all this was noted by Director 
Kincannon when he made the comment that how a census geographer 
may see the process against a local official is dramatically 
and significantly different, and there needs to be a bringing 
together of those two different viewpoints.
    I think the big issue here is the diversity. We are a 
Nation of diverse local governments of all shapes and sizes and 
footprints, and in the interest of the membership that I 
represent we have to recognize that these folks don't 
necessarily have the in-house resources to be able to do the 
important work ahead.
    So I agree with the Mayor that training, training, and 
training is going to be an important part of all of this, and 
there needs to be some more outreach done by the Census Bureau 
to better prepare our local officials or assist in that 
preparation.
    Mr. Clay. And that is how you get the local buy-in?
    Mr. Hite. Absolutely.
    Mr. Clay. The local government buy-in of this?
    Mr. Hite. And I think that is why there was a disconnect in 
the 2000 census, because we did not have that level of 
outreach, communication, and training.
    Mr. Clay. Mr. Coat, how do we improve on the process here?
    Mr. Coats. I think communication is definitely the key. In 
my case I realized that the people conducting the promotional 
workshops and the technical training coming from the U.S. 
Census Bureau have a certain script that they have to follow in 
their training. That script is very general. It doesn't tie the 
necessary benefits of the LUCA participation to the needs and 
the interests of local governments.
    When I speak to my local governments, I can tell them that 
in 2000 North Carolina is the tenth largest State in 
population. We had the highest number of challenges to census 
counts of any State. That comes from us believing that our 
populations were under-counted and our local governments were 
on the ball about challenging what didn't seem right to them.
    When I talk to my local governments I can say, LUCA is your 
opportunity to make sure you are right going into the county. 
It is either an investment of time going into the census or it 
is a cost of money by having bad census counts in the long 
term.
    That is a very local, a very State-oriented approach, and I 
believe that is what the census had in mind when they involved 
State participation with the LUCA program.
    Another key part of that is developing partnerships. Many 
of these local governments, when they get letters, feel that it 
is something that they have to do, that it is a mandate that 
the Federal Government has dropped on the small resources that 
they do have, and they felt left all alone in this program.
    When I talked to them, I let my small, local communities 
know that if you don't feel that you have the people to do 
this, maybe you can have a staff member that sits in with your 
county who is verifying the addresses for your whole county, 
and that person will focus on your resources. So it is letting 
them know that you are not along, you can partner with your 
county, you can partner with other communities, you can partner 
with councils of government, which are part of our daily 
dissemination network with the Census Bureau in North Carolina. 
So it is letting them know that they are not alone and 
connecting them with the resources that are there.
    Now, there was some mention made of 800 numbers and the 
training that is currently going on. There are two 800 numbers 
that were mentioned--one of them was not active yet--and that 
was going to be for the technical support for those people who 
were using the MAF/TIGER Software. The other number was to 
connect them with the Census Regional Office, which is a good 
step in the right direction, but, as has been mentioned, the 
geographers who work in that division are used to seeing this 
information all the time. They tend to speak the language that 
local governments may not necessarily speak in terms of looking 
at the information. So being able to have someone in place who 
can kind of speak English to these people helps an awful lot.
    So, again, it is communication and partnership and making 
it personal, as opposed to just a big national thing.
    Mr. Clay. Thank you for that response.
    Let me ask Mayor Hudson, after Hurricanes Katrina and Rita, 
the Bureau released a document called Special Population 
Estimates of Impacted Areas in the Gulf Coast. It has been 
widely reported that many people who evacuated from New Orleans 
went to Texas and other parts of the country. According to the 
Bureau's analysis, the State of Louisiana experienced a net 
loss of over 340,000, and Mississippi a net loss of over 42,000 
residents, while Texas had a net gain of 136,000. In your 
opinion, have population shifts created enumeration problems 
that are unique to the Gulf Coast region? And, if so ordered, 
how would you suggest the Census Bureau and officials at the 
State and local levels address these problems?
    Ms. Hudson. To answer your question, yes. I flew in from 
Gulf Port, MS, this morning, and I am in Gulf Port currently 
for the Mississippi Municipal League Conference, and driving up 
and down Highway 90 you see numbers of houses that are vacant, 
but you also see hotels, and you see hotels that have people 
who have lived in them since the hurricane. How do you count a 
person or a family that lives at a hotel? That is the type of 
question that people who are in hurricane-impacted regions are 
facing, and those are the types of questions that the 
partnership between the Census Bureau and local governments can 
help to answer, because we know where to find those people. We 
know where they are located. We know those persons who are 
intending to come home, those persons who are maybe located in 
a hotel or a shelter. We have that ability, but it is going to 
take the partnership and the communication between the two to 
develop a plan of action on how to count them and make sure 
that we keep that count accurate.
    Mr. Clay. That is a very salient point you bring up, that 
people are now living in hotels, and that is a very good 
question to ask the Bureau. Do they plan on counting the people 
in the hotels in that region?
    Ms. Hudson. There are a number of them that are not just in 
that region but are across the south, as a whole. We talk about 
hurricane-impacted areas, but the fact is that the entire 
United States is now a hurricane-impacted area, and that is 
because people have moved everywhere, and you have people who 
are in the process of returning but who are in shelters long 
term, who have been in hotels long term in a number of 
different areas across I know the State of Mississippi.
    Mr. Clay. The Bureau will publish city-style and non-city 
style addresses on a single list, as opposed to two separate 
lists, as was done for the 2000 census. In your opinion, will 
this help or hinder the local governments in their address 
review? I have never been to Greenville, but I am not sure if 
it is a mixture of city blocks and kind of more rural settings 
or not, but apparently the census wants to do something 
different, as opposed to what they did in 2000. In your 
opinion, will it help or hinder local governments?
    Ms. Hudson. It is going to have a mixed effect on all of 
our member communities, just because within the National 
Conference of Black Mayors you have so many different types of 
communities--rural, urban, inner city. You have such a mix 
there.
    Ultimately I think it does provide more of a broad base for 
us to look at and examine, but still it is going to take coming 
back to working hand-in-hand with some of those member 
communities, that if they do not understand one form, that they 
need explanation and assistance on how to determine what will 
work best for that community.
    Mr. Clay. Yes. Thank you for that response.
    Mr. Coats, I commend you on your efforts to ensure full 
participation in LUCA by governments in the State of North 
Carolina. Based on your testimony, it appears that your State 
is being proactive. You identify communication and promotion 
issues with LUCA in your testimony. You stated that ``Local and 
State governments whose representatives attend promotional 
events will be most likely to participate in LUCA; thus, one 
key to increasing LUCA participation would appear to be a 
higher level of communication between the Bureau and local and 
State officials.'' Based upon your experiences in North 
Carolina, what steps would you recommend the Bureau take to 
create stronger channels of communication between the Bureau 
and State and local governments?
    Mr. Coats. Within our dissemination network through the 
State Data Center Program, we have affiliate relationships with 
the North Carolina League of Municipalities and North Carolina 
Association of County Commissioners. Both of those 
organizations have newsletter publications that are circulated 
monthly and have expressed an interest and a willingness to 
drop in any kind of articles, even if it is bullet points, that 
may come from the Census Bureau to keep awareness on census 
activities during this buildup to the 2010 census.
    Mr. Clay. How can the Bureau encourage other States to 
behave in a similar manner and actively encourage localities to 
participate in LUCA?
    Mr. Coats. In North Carolina's perspective, I hope other 
States don't. It is entirely in our benefit for you all not to. 
[Laughter.]
    It really is a local decision that has to be made. At 
conferences that I have attended for the State Data Center 
Network, I believe that the other States have that realization.
    Mr. Clay. You do?
    Mr. Coats. I do.
    Mr. Clay. OK. You recommend that the Bureau use local 
resources such as State Data Centers to stress the importance 
of participation in LUCA. How might the data centers facilitate 
the goal of increasing participation by local government, and 
what could be done to increase participation by local officials 
in these promotional events?
    Mr. Coats. For the dress rehearsal area we are talking 
about nine counties around Fayetteville, NC, the military base 
that is there. There are also pockets of rural areas in those 
areas, tribal communities, Hispanic communities in those areas. 
It was not difficult for my office to contact the local 
governments in those areas. When we get to the point that we 
are talking about the entire Statewide coverage for LUCA, I 
don't think that is going to be feasible. It is going to be 
more people calling the 100 counties and 525 different local 
governments that we have.
    So I think in that case we need to use the resources that 
are already there, agencies like the League of Municipalities, 
the County Commissioners, the Association of Broadcasters. The 
Census Bureau did a good job of facilitating Complete Count 
Committees leading into the last census involving local 
community leaders, not just elected officials, but religious 
leaders and media outlets in the local areas.
    Those areas tend to be much more in tune with their local 
communities. The local communities pay more to information they 
are going to hear from a local radio station, a local 
newspaper, or from a community leader than they will by getting 
a letter in the mail from the U.S. Census Bureau.
    Mr. Clay. Let me ask you about the training. You 
recommended that promotional and technical training be 
conducted separately. In our April 24th hearing it was 
suggested that the training timeframe be expanded. How would 
you revise the schedule so that the promotional and technical 
training are conducted in a timeframe that provides maximum 
benefit to the participants?
    Mr. Coats. For the current cycle, introductory letters have 
already been sent out to the highest elected officials. There 
was going to be an invitational letter sent out in June to the 
highest elected officials asking them to select liaisons and a 
participation level, and technical training would be happening 
throughout the summer with the actual window for conducting 
LUCA lasting through the early fall.
    I think that is an OK timeframe, because I would like to 
have folks be able to go to the promotional training and then 
go to a technical training workshop before they have to make 
their decisions on how they are going to participate. It 
provides them with the opportunity to actually make a decision 
from a leadership point of view, to identify the people who 
will actually be doing the process, and have them exposed to 
training before they have to make a formal decision. I think 
that is a good timeframe.
    I would like to have more local presence. I know that, from 
what I have been told, there are plans to have 14 to 15 local 
census offices covering North Carolina. If those offices can be 
in place before that decision has to be made, and if there 
could be something like the April open house workshop done 
during that time period where the promotional training is 
happening and the technical training is happening, the 
community would have a better vision of what is going on, and I 
think there would be more buy-in.
    Mr. Clay. Thank you so much for that response.
    Mr. Hite, has the National Association of Towns and 
Townships taken any proactive steps to ensure full 
participation by your members in LUCA?
    Mr. Hite. I think so. We have been working with the Census 
Bureau in trying to get them to understand our membership. One 
of the differences that would really set us apart maybe from 
the League of Cities or the National Association of Counties is 
that our membership, our elected officials, are for the most 
part volunteers, have full-time jobs, and their role in local 
government is done on a part-time basis. That is going to take 
a special kind of outreach. We have been trying to work with 
the Census Bureau and rely on our individual State publications 
to be able to get the information out.
    I think that for each of the member States in the national 
associate one of our greatest challenges is how are we going to 
get our States as mobilized, for example, as North Carolina has 
reported it is?
    Mr. Clay. We have heard that the address list and maps 
provided by the Bureau are not quite as current as those 
maintained by local governments. Have you found this to be the 
experience of your membership? And, if so, do you have 
recommendations for correcting the problem?
    Mr. Hite. Well, it has been widespread among our members, 
and we have been hearing that criticism for some time now. I 
guess the simple response to how to improve that is to get the 
local officials more engaged in that process.
    I was talking to someone earlier today, and I think a 
classic example that everybody has heard of Hershey, PA.
    Mr. Clay. Yes.
    Mr. Hite. There is no community called Hershey, PA. It is 
in a township, and the township has not been recognized in 
those counts. They look at Hershey. There is no community. 
There is no government structure. So the likelihood is that the 
count in that area has gone to another community. So as a 
result, that particular township has to suffer, unless it wants 
to take on the cost and the burden of doing the census itself 
and making the appeal.
    Mr. Clay. On that point, we have heard from a number of 
entities that the appeals process can be quite trying for local 
governments.
    Mr. Hite. It is particularly trying for those volunteers.
    Mr. Clay. Can you tell us a little bit about your members' 
experience with the appeals process? And do you have any 
recommendations for improving it?
    Mr. Hite. I don't have a great deal of information on it, 
Mr. Chairman. We could get that from our members nationwide. I 
do know in Pennsylvania that some of the officials that I have 
talked to, especially in those areas that they might have a 
full-time professional manager, that from the 2000 census 
trying to go through the appeals process was just so cumbersome 
and so bureaucratic that they just threw up their hands and 
walked away from it.
    As far as specific detail, I would have to get more 
information for you, Mr. Chairman.
    Mr. Clay. We would love to receive that. Thank you.
    Mr. Coats, tell us about the appeals process, what you know 
about the appeals process.
    Mr. Coats. There are a number of different ways that this 
can be faced. The easiest way to do an appeal is to do LUCA and 
to participate in such a way that when you see a count come 
back you can say, well, we think it should be this or that.
    Barring that, once the census count is done there was a 
Count Question Resolution Program [CQR], that ran for, I 
believe, 3 years after the census data were released. 
Challenges could be made to those census counts, but only by 
local government units. So if a town was not incorporated, it 
had no mayor, there was no way that they could challenge a 
count. States, counties, or incorporated places could challenge 
their census counts based on a certain number of criteria. Was 
there a procedural problem? Were census questionnaires just not 
delivered to an area? Were boundaries not reported?
    We had a town in North Carolina that was completely missed 
because they had not reported that they had incorporated, so 
something like that.
    Based on that, the census would look at the data that they 
gathered, would look at the boundaries that they gathered, and 
they would change either the population or the total housing 
unit count for that area. All the underlying data stayed the 
same, so the population may go up or down, but the race sums 
that might equal that total would not change. It was simply a 
total population count and a housing unit count that would 
change.
    The other option, if you felt that a count question 
resolution didn't meet your needs, is to ask for a special 
census to be done. The special census, as a selling point to my 
local communities, the local census is paid for by the local 
governments. The State does not help you do that. The Federal 
Government does not help local governments pay for another 
census to be done. And it is usually not cheap. So the local 
governments have to come up with their own money to ask the 
Census Bureau to come out and essentially re-conduct a census 
for their area. Again, they don't really know if they are going 
to get numbers that they like or not, but that is an option.
    Mr. Clay. I am certainly aware of that. The city that I 
represent, St. Louis, MO, has done it twice in the last 4 years 
and were successful on the second try. I didn't realize they 
had to pay for it.
    Thank you for that response.
    I thank the panel for your testimony today. I certainly 
appreciated hearing it.
    This hearing demonstrated the need for communication, 
better communication between local governments and the Bureau. 
As we make our way toward the 2010 census, it has certainly 
pointed out the need for strategic communications and a process 
to ensure that local governments buy in to the census for 2010.
    Again, thank you all for today's hearing. That concludes 
this hearing. The hearing is adjourned. Thank you.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
